OFFICE OF INSPECTOR GENERAL


AUDIT OF COMMODITIES
FUNDED UNDER THE
PRESIDENT’S MALARIA
INITIATIVE IN ZAMBIA


AUDIT REPORT NO. 4-611-13-002-P
NOVEMBER 8, 2012




PRETORIA, SOUTH AFRICA

Office of Inspector General


November 8, 2012

MEMORANDUM

TO:       	          USAID/Zambia Mission Director, Dr. Susan Brems

FROM: 	              Regional Inspector General/Pretoria, Robert W. Mason /s/

SUBJECT:	            Audit of Commodities Funded Under the President’s Malaria Initiative in Zambia
                     (Report Number 4-611-13-002-P)

This memorandum transmits our final report on the subject audit. We carefully considered your
comments on the draft report and have included them in their entirety (without attachments) in
Appendix II.

The report includes seven recommendations to strengthen the management of commodities
funded under the President’s Malaria Initiative in Zambia. Based on management’s comments
on the draft report and other information provided, we acknowledge that management decisions
have been reached on all recommendations, and final action taken on Recommendations 3 and
4. We agreed with all of the decisions except for Recommendation 1 because we do not
believe it adequately addresses the intent of the recommendation. Details regarding our
disagreement are on page 15.

If you choose to revise your proposed action for Recommendation 1, please advise us of this in
writing. Please also provide the Office of Audit Performance and Compliance Division with the
necessary documentation to achieve final action on Recommendations 1, 2, 5, 6, and 7.
Recommendations 3 and 4 are closed upon the issuance of this report.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof, X5, 0181
Pretoria, South Africa
http://oig.usaid.gov/
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 5 


     USAID/Zambia Did Not Manage Risks of Using Zambia’s Systems ....................................... 5 


     Some Districts Used Insecticide After Spray Season ........................................................... 10 


     Society for Family Health Gave Nets to Employees ............................................................. 11 


     USAID/Zambia Reported Inaccurate Data ............................................................................ 12 


     USAID/Zambia’s Branding and Marking Strategy Was Not Effective ................................... 13 


Evaluation of Management Comments................................................................................... 15 


Appendix I—Scope and Methodology .................................................................................... 17 


Appendix II—Management Comments ................................................................................... 21 


Appendix III—Sites Auditors Visited....................................................................................... 28 





Abbreviations
This report includes the following abbreviations:

ADS                             Automated Directives System
IRS                             indoor residual spraying
JSI                             John Snow International
MSL                             Medical Stores Limited
NMCC                            National Malaria Control Center
PMI                             President’s Malaria Initiative
RIG                             Regional Inspector General
SFH                             Society for Family Health
ZISSP                           Zambia Integrated Systems Strengthening Program
SUMMARY OF RESULTS

Malaria is a mosquito-borne disease with symptoms that include fever, nausea, vomiting, and
diarrhea. According to the World Health Organization’s World Malaria Report 2011, there were
an estimated 216 million malaria cases worldwide in 2010, resulting in 655,000 deaths.

The disease is endemic throughout parts of Africa, including Zambia; 4.2 million cases of
malaria led to more than 4,800 deaths there in 2010. USAID has supported Zambia’s efforts to
combat malaria through the President’s Malaria Initiative (PMI) since 2008 by providing more
than $96 million through fiscal year 2011. The commodities provided include artemisinin-based
drug therapies, rapid diagnostic tests, mosquito nets treated with insecticide, and sachets of
insecticide for indoor spraying to kill mosquitoes.

Table 1 shows the PMI-funded commodities delivered to Zambia from October 2010 to
March 2012 and their intended beneficiaries.

                            Table 1. PMI-Funded Commodities (Audited)
         Commodity             Quantity       Cost ($ million)*           Intended Beneficiaries
     Drugs                     3.8 million          3.2           Patients suffering from malaria
                                                                  Health workers trained to diagnose
     Tests                     3.9 million           2.0
                                                                  malaria
     Nets                      1.7 million           6.1          Pregnant women and children under 5
     Nets                       940,146              3.5          General population
                                                                  Residents of targeted urban and peri-
     Insecticide sachets        385,280              3.1
                                                                  urban structures
     Total                                          17.9
    Sources: USAID/Zambia and partners
*
    The cost column was not audited.

As part of USAID’s increasing emphasis on using host-nation systems, USAID/Zambia has
relied on the Zambian Government to store and distribute PMI-funded commodities. USAID
initiated projects and programs with four partners—John Snow International (JSI), Society for
Family Health (SFH), RTI International, and Abt Associates—to procure the commodities and
help carry out the malaria initiative.

JSI procured drugs, tests, and nets through the USAID DELIVER Project. The Zambian
Government’s Medical Stores Limited (MSL) received and stored the drugs and tests upon
arrival and distributed them to district health offices. The district health offices then distributed
them to government health facilities.

JSI delivered the nets to SFH, which stored or distributed them to district health offices based
on instructions it received from Zambia’s National Malaria Control Center (NMCC).1 The offices
then distributed the nets to health facilities for distribution to targeted populations.




1
    SFH implements this work through the mission’s Partnership for Integrated Social Marketing project.


                                                                                                          1
RTI International procured insecticide,2 which MSL received and stored. NMCC, with support
from the mission’s Zambia Integrated Systems Strengthening Program (ZISSP) implemented by
Abt Associates Inc., distributed it to district health offices for spraying.

The Regional Inspector General (RIG)/Pretoria conducted this audit to determine whether
commodities that PMI paid for were reaching their intended beneficiaries in Zambia. The audit
found that some commodities were reaching beneficiaries as intended. Drugs3 were in stock in
the 30 health facilities the audit team visited (listed in Appendix III), and tests were in stock at
25 of those. To verify that beneficiaries received the commodities, auditors reviewed outpatient
and test registries that listed people who were tested and treated for malaria at the health
facilities. Auditors reviewed registries for net distributions and met with beneficiaries to confirm
that they received nets. For insecticide, auditors visited houses in five districts targeted for PMI-
supported spraying and confirmed that it took place.




              A woman in Zambia’s Ndola District shows mosquito nets that she
              received from USAID. (Photo by RIG/Pretoria, May 2012)

However, because of problems accounting for PMI-funded commodities, the audit could not
determine whether all commodities reached their intended beneficiaries. For example,
30 government health facilities that auditors visited (out of nearly 2,000 nationwide) did not have
documentation to account for 38 percent of the commodities tracked from MSL and district
health offices, worth $65,439, and 21 did not have records on hand to document receipt of
80,990 nets (80 percent of the nets distributed, worth about $300,000). Auditors counted
insecticide sachets and found that MSL’s inventory records did not account for 3,880 of them,
worth $40,236. None of five districts had records that completely or accurately accounted for
the amount of insecticide used during the season.


2
 USAID funded this work through Indoor Residual Spraying (IRS 2) Task Order One. 

3
 The drugs are packed in four different dosages. Some facilities were out of specific dosages, but none 

were out of all four simultaneously. 


                                                                                                       2
Auditors concluded that:

	 The mission did not manage the risks of using Zambian systems to store and distribute PMI-
   funded commodities (page 5).

	 Four of five districts visited used leftover PMI-funded insecticide to spray homes after the
   designated season. Doing so contradicted the best practice of spraying an entire area
   before the peak transmission season for maximum effectiveness, which typically coincides
   with the rainy season when mosquitoes are most actively breeding and transmitting malaria.
   Moreover, any homes sprayed after the season were not included in the mission’s report to
   Congress (page 10).

	 SFH gave more than 500 PMI-funded nets worth more than $1,800 to its employees.
   Neither USAID’s contract with SFH nor NMCC’s distribution plan provided for nets to be
   given to employees, and SFH did not confirm that its employees and their family members
   were eligible (pregnant women or children under 5) before distribution (page 11).

	 USAID/Zambia reported inaccurate data on malaria-related indicators in its fiscal year 2011
   performance plan and report to Congress (page 12).

	 USAID/Zambia’s branding and marking strategy was not effective. Beneficiaries and
   individuals involved in distributing PMI-funded commodities generally were not aware of the
   Agency’s role in providing them, thus reducing public diplomacy benefits (page 13).

To strengthen management of PMI-funded commodities in Zambia, the audit recommends that
USAID/Zambia:

1. 	 Implement an agreement with the Government of Zambia that clearly delineates Zambia’s
     responsibilities for malaria commodities purchased with U.S. Government funds (page 9).

2. 	 Implement a documented plan to mitigate the risks of using Zambia’s systems for storing
     and distributing malaria commodities funded by PMI (page 9).

3. 	Implement procedures to review the annual needs assessment report for errors and for
    reasonable assurance of its accuracy before using it to make major decisions concerning
    spraying activities (page 10).

4. 	Work with the Government of Zambia and other partners to implement a plan to
    communicate to the districts expectations for the use and storage of surplus insecticide
    between spray seasons (page 11).

5. 	Implement procedures to make sure that all source documents are stored safely for
    performance indicator data reported in the annual performance plan and report to Congress
    (page 13).

6. 	 Notify the Office of U.S. Foreign Assistance Resources, in writing, of the inaccurate results
     reported for malaria-related commodity indicators in fiscal year 2011 (page 13).




                                                                                                3
7. 	 Document its objectives for identifying goods and services provided under PMI in Zambia as
     American aid, and update its communication strategies, including branding and marking
     plans, if they do not achieve those objectives (page 14).

Detailed findings appear in the following section. Our evaluation of management comments is
included on page 15. Appendix I presents the scope and methodology, and management
comments are included in Appendix II.




                                                                                             4
AUDIT FINDINGS 

USAID/Zambia Did Not Manage Risks
of Using Zambia’s Systems
The Government Accountability Office’s Standards for Internal Control in the Federal
Government discusses management’s responsibility to identify and analyze risks for possible
effect. The standards state, “Risk analysis generally includes estimating the risk’s significance,
assessing the likelihood of its occurrence, and deciding how to manage the risk and what
actions should be taken.”

The standards also state that transactions need to be documented and that documentation
needs to be available for review. Physical controls also need to be established for vulnerable
assets, like commodities, and the assets should be counted periodically to compare numbers
with those in inventory records. Additional guidance from the USAID DELIVER Project4
reiterates these management practices.

USAID/Zambia used partners and Zambian Government entities to store and distribute PMI-
funded commodities. The mission’s contracts with the partners clearly define a scope of work
and other requirements, such as reporting on program activities and allocating and accounting
for program costs. The audit found that the partners’ systems for procuring and distributing
commodities generally accounted for the commodities under their control.

However, once the commodities were transferred to the Zambian Government, its systems for
storage and distribution were weak. The audit team found problems at every stage of the
process—from the central MSL warehouse that received the commodities to the health facilities
that distributed them to beneficiaries. Storage space and personnel training were inadequate,
which made it difficult to account for PMI commodities. The problems found at each stage are
discussed below.

Medical Stores Limited. MSL’s central warehouse lacked sufficient space to store PMI-funded
tests, drugs, and insecticide properly. The warehouse did not have a fire suppression system,
which put PMI-funded commodities at risk in case of fire. MSL also did not have enough pallets
and shelves to accommodate all of the tests and drugs, and subsequently placed some of them
in a bulk storage area. Storing them there made it difficult for workers to locate and use those
that were first to expire. According to a report from the Zambian Government, about $3 million
worth of commodities expired as of December 2011, including 172,827 drugs to treat malaria
that the audit valued at $236,650.

Workers and MSL managers said they did not have the training or technical expertise to handle
insecticide. In fact, the managers said they should not be responsible for such duties.




4
 USAID DELIVER Project, Task Order 1, The Logistics Handbook: A Practical Guide for the Supply
Chain Management of Health Commodities, 2011, and Guidelines for Managing the Malaria Supply
Chain: A Companion to the Logistics Handbook, 2011.

                                                                                                5
The following photos show examples of the storage conditions that auditors found at the MSL
warehouse.




The MSL warehouse did not have enough storage space, pallets, or shelves for bulk
commodities (left), including some PMI-funded drugs and tests. The staff lacked training on
how to store insecticides safely (right). (Left photo by RIG/Pretoria, and right photo by MSL,
May 2012)

The audit also found weaknesses with MSL’s systems for tracking commodities and filling
orders. For example, while employees recorded the batch numbers of drugs and tests received
at the central warehouse, they did not record the numbers for the commodities issued to district
health offices and government health facilities. Consequently, those commodities could not be
traced in case of recall. In addition, MSL did not update its inventory system when workers filled
orders with items that were easily reachable instead of using those that were first to expire,
causing inaccuracies in the inventory system. Since MSL conducted only partial physical
counts once a year, these inaccuracies increased the risk that some commodities would expire
or be stolen and not be detected.

Auditors traced 385,280 insecticide sachets, for which USAID/Zambia paid about $3.1 million, to
MSL. MSL’s inventory system, however, did not account for 3,880—worth $40,236—that
auditors and MSL staff physically counted in the warehouse; the system showed that all sachets
had been distributed. During the first visit to MSL, auditors and MSL employees found 320 of
the sachets in the storage area for hazardous materials; the warehouse staff uncovered the
additional 3,560 later.

Furthermore, not all drivers responsible for transporting insecticide from MSL to the districts
were trained to handle hazardous materials like insecticide in an emergency. This is important
because serious traffic accidents occur frequently on Zambian roads.

District Health Offices. Auditors traced 108,520 sachets, worth $1.1 million, to 5 of 35 districts
targeted for PMI-supported spraying. None of the districts had complete or accurate records
that accounted for insecticide consumption during the spray season, despite having forms from
ZISSP for that purpose. Districts also lacked internal controls to account for sachets that had
been distributed, but not used, on a daily basis. Auditors found that some districts were using


                                                                                                6
PMI-funded insecticide after the season ended, contrary to best practice as discussed on
page 10.

District offices were not handling empty insecticide sachets as instructed for environmental
safety. ZISSP officials said that offices should record the number of empty sachets and store
them until the Zambian Environmental Management Agency approved disposal. Only
one district office visited had done so, and employees at another had already burned the empty
sachets without approval because they said they needed the storage space.

Health Facilities. The audit traced $171,418 of tests and drugs, some of which PMI funded,
distributed to 30 health facilities from MSL and district health offices. Thirty-eight percent of
them, worth $65,440, were not accounted for in the facilities’ records. The team compared
distribution records from MSL and district offices with inventory records at the health facilities.
Twenty-five had either inaccurate or incomplete records, while four had no records at all
available for review. The figure below shows the values of drugs and tests accounted for and
not accounted for in the facilities the team visited.

                 Accountability for Drugs and Tests at Health Facilities (Audited)




Source: Based on RIG/Pretoria analysis

The team physically counted drugs and tests in 5 district health offices5 and 30 health facilities.
They then compared the counts with the quantity in the inventory records and reviewed stock
records. They found $60,270 in unexplained adjustments and discrepancies. About half—
$29,328—was for 18,330 drugs that were on the inventory list for one district office. Yet these
were not in stock when the team visited, and since records had not been updated during the
2 months before the visit, there was no record of what happened to them.



5
    District health offices in Kasama and Chama did not store commodities.

                                                                                                 7
The audit also found that some donated drugs were being sold. Auditors bought four courses of
malaria treatments from private pharmacies in different districts. One that was purchased in
Kitwe had been donated by the United Nations Development Program and intended for public
sector use. In addition, JSI conducted a “mystery shopper” exercise in October 2010 and found
that 13 of 21 private sector pharmacies were selling donated malaria treatments. Although
USAID had not procured any of the treatments auditors bought, the fact that some were for sale
suggests the risks associated with Zambian Government systems.

The audit traced 100,647 nets worth about $372,0006 to 28 health facilities that received them
from district offices. Twenty-one of them did not have records on hand documenting receipt of
80,990 nets (80 percent). Although many facilities maintained registries with the names of
people who received nets, they had not organized the records in a manner that made it possible
to compare the number of beneficiaries with the total number of nets the facility received. For
example, in some cases, the number of beneficiaries on the registries exceeded the total
number of nets that the facility received.

At 4 of the 28 facilities, the audit found that the staff members were not distributing nets
exclusively to pregnant women and children under 5 as intended. Employees at two were
distributing them to the general population. At the third, nets were given to illegal settlers. At
the fourth, nets had been used as an inducement for insecticide spraying; in one instance, the
staff did not give a net to a woman who had refused to have her home sprayed because she
had asthma.

The audit also found that 66,185 of the 752,900 PMI-funded nets delivered to Zambia in
March 2012 were still in storage 3 months later at eight health facilities, six district health offices,
and in SFH’s warehouse. Officials in one district said they lacked adequate transportation to
deliver the nets to health facilities and had not yet finished training health staff on how to
distribute them properly. Given that the audit team visited just 7 of the country’s 72 districts, it is
likely that there are more undistributed nets. Furthermore, since nets are in high demand, many
facilities already distributed all of the nets they had received.

The primary factor contributing to the accountability challenges with drugs, tests, nets, and
insecticide was a shortage of trained health personnel working in Zambian Government health
facilities, exacerbated by high staff turnover and dissatisfaction among health workers. USAID’s
2011-2015 Country Development Cooperation Strategy described the human resources in the
Zambian health system as a “crisis.”

Despite these problems and a history of the Zambian Government misappropriating donor
funding,7 USAID/Zambia did not adequately manage risks since it had not established a formal
agreement with government officials that outlined responsibilities for accounting for and
managing PMI-funded commodities. An agreement between USAID/Zambia and the Ministry of
Health defining its responsibility for accounting for PMI-funded commodities, developing
mechanisms to monitor compliance and specifying remedies for noncompliance would result in
greater assurance that PMI-funded commodities are reaching intended beneficiaries.




6
 This value represents the cost per net and excludes distribution costs.

7
 The Global Fund to Fight AIDS, Tuberculosis and Malaria Office of the Inspector General, “Country 

Audit of Global Fund Grants to Zambia,” Audit Report No. GF-OIG-09-15, October 5, 2010, p. 2. 


                                                                                                       8
USAID/Zambia officials said they are working with other donors to develop a formal agreement
with the Zambian Government related to roles and responsibilities for donor-funded
commodities.

USAID/Zambia officials said that since PMI did not require the mission to perform a formal risk
assessment of host-country systems, they did not complete one. Similarly, they did not
establish a formal agreement with the Zambian Government because they had not received
guidance from Washington to do so.

To the mission’s credit, it had Deloitte Consulting LLP do a supply and logistics internal control
evaluation of record-keeping for essential medicines, including malaria drugs. However, the
evaluation did not assess the Zambian systems for nets or insecticide distribution. While the
Deloitte report can inform USAID/Zambia, the actual assessment of risk is a management
function.

Because the mission did not manage risk, problems arose in commodity storage, accounting,
and distribution that kept USAID/Zambia from having reasonable assurance that all PMI-funded
commodities reached their intended beneficiaries. To improve the mission’s management of
risk, the audit makes the following recommendations.

   Recommendation 1. We recommend that USAID/Zambia implement an agreement
   with the Government of Zambia that clearly delineates Zambia’s responsibilities for
   malaria commodities purchased with U.S. Government funds.

   Recommendation 2. We recommend that USAID/Zambia implement a documented
   plan to mitigate the risks of using Zambia’s systems for storing and distributing malaria
   commodities funded by the President’s Malaria Initiative.

Needs Assessment Report. The annual needs assessment report, described by a ZISSP
official as the “gospel truth according to NMCC” for spraying plans and insecticide procurement,
documented estimated insecticide needs for each targeted district. NMCC developed the report
with support from ZISSP, and RTI International officials confirmed that they based their
insecticide procurement on the report’s findings.

Despite the importance of the report for the mission’s spraying program, auditors noted that
USAID/Zambia officials did not review it thoroughly before making decisions about spraying
activities. In addition, the mission overlooked several errors. For example, the number of
sachets required for 2011 in one section of the report actually was the number used in the
previous year. Likewise, an appendix listing leftover insecticide from the previous season did
not account for the use or movement of 28,039 sachets. ZISSP later provided documentation
and a written explanation to account for 24,891, but could not provide any support to account for
the other 3,148 sachets.

USAID/Zambia officials said they overlooked these errors because the report was an NMCC
document and there was no formal process for USAID review or approval. The contracting
officer’s representative for ZISSP said he had not seen the report because he had delegated
oversight of the program’s malaria activities to the mission’s PMI adviser, who left in February
and whose documentation could not be found.

As a result, USAID/Zambia risked making poor decisions about its spraying program.
Two significant risks were procuring too much insecticide, which would waste limited funds, and

                                                                                                9
procuring too little, which would leave vulnerable people unprotected from malaria. Following
the 2011 spray season, for instance, the five districts targeted for spraying that auditors visited
reported having 42,770 sachets left, worth $443,525, which was 39 percent of the insecticide
procured for them. These districts still managed to cover an average 92 percent of their
areas—indicating that the amount of insecticide needed was overestimated.

While it is reasonable for USAID/Zambia to use NMCC tools, it is also in the mission’s best
interest to be sure that those tools are accurate before they become the basis for decisions. We
make the following recommendation.

      Recommendation 3. We recommend that USAID/Zambia implement procedures to
      review the annual needs assessment report for errors and for reasonable assurance of
      accuracy before using it to make major decisions concerning its spraying activities.

Some Districts Used Insecticide After
Spray Season
Districts were encouraged to complete “mop-up” spraying—spraying the homes of people who
initially refused during the spray campaign—up to 1 month after the last day of the spray
season. This practice is consistent with World Health Organization guidance, which states that
the whole area should be sprayed before the beginning of the transmission season (often the
rainy season) for effective coverage; this activity also helps the mission meet the needs of PMI
beneficiaries.

When the spray season ended, officials expected district health offices to store any leftover
insecticide for the next one. Storing the leftover insecticide was important because managers
factored it into procurement needs for the upcoming spray season.

However, auditors visited 5 of 35 PMI-supported districts and found that 4 had used leftover
insecticide after the season. As shown in Table 2, these districts used 24,290 sachets of PMI-
funded insecticide, worth $251,887. They probably used some sachets for permitted mop-up
spraying, but the amount cannot be quantified because inventory records did not account for it.

    Table 2. Number and Value of PMI-Funded Sachets Used After Spray Season (Audited)
                                        Number of Sachets
                                                                                 Value of sachets
                                                              Used after last    used after last
    District       Left over from the   Physically verified   day of spray       day of spray
                   spray season         during site visits    season             season* ($)
                                                              (calculated)
 Chingola                 4,624               4,480                   144             1,493
 Kapiri Mposhi              611                   18                  593             6,149
 Kasama                   1,935                    0                1,935            20,066
 Kitwe                    7,600                7,600                    0                 0
 Ndola                   28,000                6,382               21,618           224,179
 Total                   42,770               18,480               24,290           251,887
Source: RIG/Pretoria
*
    Each sachet was worth $10.37.




                                                                                                10
These problems occurred because districts lacked guidance from NMCC on how to handle and
store leftover insecticide. The Chingola district spraying manager asked auditors whether he
was wrong to allow intermittent spraying because NMCC had never told him to allow it or not.

As a result, USAID/Zambia did not achieve the maximum benefit from some of its PMI-funded
insecticide. Some residents undoubtedly benefitted on an individual basis from the intermittent
late spraying. However, the insecticide would have had a greater impact on the targeted areas
overall if districts had used it as planned because spraying targeted households before
transmission season is more effective than spraying on an ad hoc basis after the season has
begun.

Intermittent spraying also depleted stocks that were factored into next year’s insecticide
procurement, creating the risk of a shortage. Planners anticipated that more sachets would be
available for the next season in the districts visited because the districts’ needs assessments
identified leftover sachets.

In addition, although USAID/Zambia paid for the insecticide, the mission could not attribute any
houses sprayed after the season to U.S. Government support because the spraying took place
after the reporting period. Four districts submitted final reports for houses sprayed in January,
and one district submitted the final report in February, but those districts then used 24,290 more
sachets. Using the districts’ average consumption rates, this equates to about 53,000 houses
sprayed, or 265,000 people protected, that USAID/Zambia would not be able to include in its
annual performance plan and report to Congress.

To strengthen the mission’s spraying program, we make the following recommendation.

   Recommendation 4. We recommend that USAID/Zambia work with the Government of
   Zambia and other partners to implement a plan to communicate to the districts
   expectations for the use and storage of surplus insecticide between spray seasons.

Society for Family Health Gave Nets
to Employees
USAID/Zambia awarded SFH a contract in August 2009 worth more than $73 million. One of its
tasks was to “increase the supply and diversity of products and services to prevent and control
malaria.” This included distributing PMI-funded nets meant for pregnant women and children
under 5 to district health offices. SFH officials said they distributed these nets based on plans
they received from NMCC.

The audit found that SFH distributed more than 500 of those nets—–worth more than $1,800—
to its employees in 2012. NMCC’s net distribution plan for that year does not indicate that any
nets were supposed to go to SFH employees. Nor did the mission’s contract include a provision
for SFH employees to receive nets.

SFH officials said that because some of its employees’ households probably had pregnant
women or children under 5 (given the nation’s demographics), they believed their employees
met the criteria for receiving nets. However, SFH did not have any documentation confirming
whether the employees who received the nets actually met the criteria.




                                                                                               11
As a result, some PMI-funded nets did not reach their intended beneficiaries. SFH agreed to
determine the cost of nets that it gave to employees and refund the amount to USAID.

USAID/Zambia Reported Inaccurate
Data
USAID’s Automated Directives System (ADS), Chapter 203.3.5, “Data Quality,” states that
performance data should meet the five quality standards of validity, integrity, precision,
reliability, and timeliness to be useful for performance management and credible for reporting.
All data source documents should be maintained and readily available.

The audit found that some of USAID/Zambia’s performance data for malaria-related indicators
did not meet standards. During audit fieldwork, the mission could not produce documents to
support some data reported in the performance plan and report to Congress, and some figures
in the report did not match what PMI partners reported. Table 3 shows malaria commodity-
related performance targets and results that the mission reported in its fiscal year 2011 report to
Congress; the column on the right shows supported data that partners provided.

        Table 3. Reported Data and Support for USAID/Zambia’s Fiscal Year 2011 Malaria 

                     Commodity-Related Performance Indicators (Audited) 

                                                               Reported    Reported    Reported From
Indicator
                                                                Target      Result       Partners
Number of artemisinin-based combination treatments
(ACTs) purchased and distributed through U.S.                  3,700,000   1,688,160     324,690*
Government support
Number of artemisinin-based combination treatments
                                                               No target   1,688,160      324,690
(ACTs) purchased with U.S. Government support
Number of houses sprayed with IRS (indoor residual
                                                               1,223,977   1,102,338     1,102,338
spraying) with U.S. Government support
Number of insecticide treated nets distributed or sold
                                                               1,400,000   1,760,146     1,399,701†
with U.S. Government funds
Number of insecticide treated nets purchased with
                                                               No target   1,760,146     1,760,146
U.S. Government funds
Number of RDTs (rapid diagnostic tests)purchased
                                                               3,589,230   2,254,100     2,914,360*
and distributed through U.S. Government support
*
    Denotes quantity distributed to MSL.
†
    Denotes quantity distributed to district health offices.

USAID/Zambia’s staff constraints and turnover contributed to data quality problems. The
mission’s monitoring and evaluation specialist was solely responsible for compiling the
performance plan and report, and she said she felt overwhelmed with other high-priority
responsibilities. She added that she relied completely on technical teams to provide data and
ensure their accuracy and quality. The USAID/Zambia PMI adviser, who was the technical lead
for malaria, left in February, and the mission staff could not find his documentation for 2011
reporting.

The performance plan and report is a tool that facilitates planning, monitoring, and budgeting of
U.S. Government foreign assistance activities. The data in it must meet USAID’s data quality
standards to be useful and appropriate for managers to make decisions. To improve the quality


                                                                                                      12
of data and how USAID/Zambia maintains source documentation, we make the following
recommendations.

   Recommendation 5. We recommend that USAID/Zambia implement procedures to
   make sure that all source documents are stored safely for performance indicator data
   reported in the annual performance plan and report to Congress.

   Recommendation 6. We recommend that USAID/Zambia notify the Office of U.S.
   Foreign Assistance Resources, in writing, of the inaccurate results reported for malaria-
   related commodity indicators in fiscal year 2011.

USAID/Zambia’s Branding and
Marking Strategy Was Not Effective
One of the U.S. Government’s longstanding objectives has been to recognize American
taxpayers’ funding of foreign assistance. The expanding role that development plays in national
security has increased the need for USAID activities to be identified clearly in host countries as
provided by the United States. Section 641 of USAID’s framework legislation, the Foreign
Assistance Act of 1961, codified as amended in 22 U.S.C. 2401, specifies that all programs
under the act be identified appropriately overseas as “American aid.” ADS Chapter 320,
“Branding and Marking,” is authorized by this legislation and guides the Agency’s activities to
help achieve these objectives.

USAID/Zambia and its PMI implementing partners complied with the Agency requirement to
implement a branding and marking plan for each assistance activity. Nonetheless, some
beneficiaries, health facility employees, and even some staff members in Zambia’s district
health offices were unaware that the mission was funding a portion of nets, drugs, and tests
distributed in their communities, or the insecticide in districts targeted for spraying. Some
people interviewed said they assumed the Zambian Government supplied the commodities.
Others said they believed that SFH or MSL donated the commodities they were responsible for
distributing.

Because USAID/Zambia used Zambian systems to distribute PMI-funded commodities to
beneficiaries, the conventional USAID branding and marking practices were less effective. For
example, Zambian Government employees, who were themselves often unaware of USAID’s
sponsorship, distributed nets and drugs to beneficiaries. Since the packaging of PMI-funded
drugs and tests did not contain a USAID logo, there would be no way for beneficiaries to know
that USAID donated the commodities without other cues. And, while the outer packaging of
PMI-funded nets was branded with the USAID logo, beneficiaries discarded the outer packaging
soon after collecting the net.

In the case of the insecticides, partners affixed USAID labels to spray equipment; however,
since most USAID-funded training and daily spraying activities took place at government
facilities, the Zambian Government was a more visible partner. Auditors noted that stickers
affixed to sprayed houses were not cobranded with the USAID logo, even though the branding
and marking plan required either cobranding or getting an exception from the mission to deviate
from the plan. ZISSP and USAID/Zambia staff members said they overlooked cobranding
stickers because standard NMCC stickers were used in all districts.




                                                                                               13
Finally, USAID/Zambia officials questioned whether USAID’s sponsorship was the message
they wanted to emphasize in PMI, given USAID’s close partnership with the Government of
Zambia and the Agency’s goal of strengthening Zambian systems. While reinforcing the
Zambian Government’s role can promote program sustainability, minimizing the U.S.
Government’s role is contrary to law, as required by the Foreign Assistance Act, and policy.




 USAID-branded posters (left) and labels (center) are designed to communicate the Agency’s
 sponsorship of the national malaria program. The stickers (right) affixed to houses sprayed in
 the program should also incorporate the logo. (Left and center photos by USAID/Zambia;
 right photo by RIG/Pretoria, May 2012)

Without clear, effective branding, the U.S. Government and the American people did not receive
the maximum public diplomacy benefits from their assistance to Zambia’s malaria program. To
ensure that USAID/Zambia’s branding and marking objectives are defined clearly and achieved,
we make the following recommendation.

   Recommendation 7. We recommend that USAID/Zambia document its objectives for
   identifying goods and services provided under the President’s Malaria Initiative in
   Zambia as American aid, and update its communication strategies, including branding
   and marking plans, if they do not achieve those objectives.




                                                                                              14
EVALUATION OF MANAGEMENT
COMMENTS
In its comments to the draft report and subsequent correspondence, USAID/Zambia agreed with
all seven recommendations.          We have acknowledged management decisions for all
recommendations, and final action has been taken on Recommendations 3 and 4. We agreed
with all except for Recommendation 1. A detailed evaluation of management comments follows.

Recommendation 1. USAID/Zambia agreed to update its existing mutual accountability
framework with the Ministry of Health to specify responsibilities for managing donor
commodities. Target completion date for this action is March 31, 2013. As a result, we
acknowledge that a management decision has been reached on Recommendation 1.

However, we disagree with it because we do not believe the planned actions adequately
address the recommendation’s objective, which is to provide greater assurance that all PMI-
funded commodities are reaching their intended beneficiaries. While the draft update to the
Mutual Accountability framework is to include language acknowledging the Zambian
Government’s role in accounting for donor-purchased commodities, the framework does not
include mechanisms for monitoring the government’s compliance in accounting for donor-
purchased commodities or remedies in case it does not comply. Without such provisions, the
updated framework does not have the power to make sure that Zambia fulfills its responsibilities
for managing donor commodities.

Recommendation 2. USAID/Zambia agreed to implement a documented plan to mitigate the
risks of using Zambia’s systems for storing and distributing malaria commodities funded by PMI
by June 30, 2013. As a result, we acknowledge that a management decision has been reached
on Recommendation 2, and we agree with it.

Recommendation 3. USAID/Zambia established procedures to review the annual needs
assessment report for errors and reasonable assurance of its accuracy before using it to make
major decisions concerning spraying activities. Based on management’s comments and the
supporting documentation provided, we acknowledge that a management decision has been
reached and final action taken on Recommendation 3. We agree with the decision.

Recommendation 4. USAID/Zambia, along with implementing partners and the Zambian
Ministry of Health, developed standard operating procedures for communicating expectations
about the use and storage of surplus insecticide between spray seasons. Documentation
subsequently provided by the mission indicated that these procedures had been sent to NMCC
for review and approval.       Based on management’s comments and the supporting
documentation provided, we acknowledge that a management decision has been reached and
final action taken on Recommendation 4. We agree with the decision.

Recommendation 5. In its management comments, USAID/Zambia listed several steps taken
to improve the maintenance of source documentation. In subsequent correspondence, mission
officials said they updated the mission order on performance management to require that staff
retain all source documents for performance indicator data included in the annual performance
plan and report. The mission expects to finalize the mission order by November 30, 2012. As a


                                                                                             15
result, we acknowledge that a management decision has been reached on Recommendation 5,
and we agree with it.

Recommendation 6. USAID/Zambia agreed to notify the Office of U.S. Foreign Assistance
Resources in writing of the inaccurate results reported for malaria-related commodity indicators
in fiscal year 2011, and it did so on October 11, 2012. However, the corrections were not
consistent with supported data presented in Table 3 of the audit report. Based on subsequent
correspondence, USAID/Zambia agreed to resubmit revised results that are supported
adequately by November 30, 2012. As a result, we acknowledge that a management decision
has been reached on Recommendation 6, and we agree with it.

Recommendation 7. USAID/Zambia agreed to determine and document its objectives for
identifying PMI goods and services as American aid and to update its communication strategies,
including branding and marking plans, if it does not achieve those objectives. The mission
anticipates completing all planned actions by March 31, 2013. As a result, we acknowledge that
a management decision has been reached on Recommendation 7, and we agree with it.




                                                                                             16
                                                                                       Appendix I



SCOPE AND METHODOLOGY
Scope
RIG/Pretoria conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions in accordance with our audit objective. We believe that the evidence obtained
provides that reasonable basis.

The objective of this audit was to determine whether USAID/Zambia's PMI-funded commodities
were reaching their intended beneficiaries.

Audit fieldwork took place from May 14 to June 8, 2012. The audit covered selected
commodities procured for USAID/Zambia’s PMI program in fiscal year 2011 through
March 2012 and the partners involved in procuring, managing, and distributing these
commodities during the same period. The audit covered 3.8 million drugs, 3.9 million tests,
2.7 million nets, and 385,280 sachets of insecticide, collectively procured for $17.9 million. The
audit covered four USAID-funded implementing mechanisms: USAID DELIVER, implemented
by JSI; Partnership for Integrated Social Marketing, implemented by SFH; IRS Task Order 2,
implemented by RTI International; and ZISSP, implemented by Abt Associates. USAID/Zambia
reported total obligations of $53.3 million for these as of June 30, 2012, as shown in the table
below.

          USAID-Funded PMI Partners and Implementation Mechanisms (Unaudited)
                                                      Amount Obligated     Amount Disbursed
    Program                      Partner              for Malaria as of    for Malaria as of
                                                      June 30, 2012 ($)    June 30, 2012 ($)
    USAID | DELIVER              JSI                         32,529,617         24,967,975

    Partnership for Integrated
                                 SFH                           2,077,489         1,391,339
    Social Marketing

    IRS 2 Task Order 1           RTI International             7,191,450         4,191,450

    ZISSP                        Abt Associates              11,505,000          4,245,000


In planning and performing this audit, we assessed internal controls related to ongoing
monitoring, reporting, and accounting for and safeguarding PMI-funded commodities.
Specifically, we reviewed the following:

    Cooperative agreements, contracts, and modifications

    Annual work plans and budgets

    Quarterly and annual progress reports from partners



                                                                                               17
                                                                                       Appendix I


	 Malaria operational plans for fiscal years 2011 and 2012

	 USAID/Zambia’s April 2011 data quality assessment on malaria indicators and programs.

	 Fiscal years 2011 and 2012 spraying needs assessment reports and fiscal year 2012
   checklists for five districts

	 2011 and 2012 NMCC net distribution plans

	 Invoices and inventory records for procured commodities

	 Records supporting receipt, storage, and distribution of commodities, including dispatch and
   goods received notes, and inventory records at the central warehouse, district health offices,
   and health facilities visited.

	 USAID/Zambia’s fiscal year 2011 performance plan and report to Congress for selected
   malaria indicators

	 The fiscal year 2011 Federal Managers’ Financial Integrity Act of 19828 certification for
   USAID/Zambia

We also interviewed key members of USAID/Zambia’s health team and support staff, including
people from the program, financial management, and contracting offices. We met with
implementing partners JSI, SFH, and Abt Associates at their offices in Lusaka and held
conference calls with U.S.-based partners from RTI International, Abt Associates, and Deloitte
Consulting. We met with the permanent secretary for the Ministry of Health, the NMCC acting
deputy director, members of the national malaria team, and MSL managers and warehouse
staff.9 In Lusaka we toured the central MSL warehouse where PMI-funded drugs, tests, and
insecticides are stored, and the SFH warehouse where nets are stored. We conducted
additional site visits in seven districts (Chama, Chingola, Chipata, Kapiri Mposhi, Kasama,
Kitwe, and Ndola), where we met with district health office and heath facility staff, and
beneficiaries, toured storage facilities, and reviewed records supporting receipt, storage, and
distribution of PMI-funded commodities. We have included a full list of sites visited as Appendix
III.

Methodology
To answer the audit objective, we first identified the intended beneficiaries by reviewing program
documentation and conducting interviews with mission, partner, and Zambian Government staff
members. We then gained an understanding of the supply chain for PMI-funded commodities
from procurement to distribution, and identified major risks and weaknesses related to
accounting for and safeguarding the commodities.

To verify that the commodities procured with USAID funds arrived in Zambia, we compared
invoices and dispatch notes from the supplier with records supporting receipt at MSL and SFH,

8
 Public Law 97-255, as codified in 31 U.S.C. 3512. 

9
 MSL has contracted with Crown Agents, an international development company, since 2004 to manage

warehouses, logistics, procurement support, and to strengthen systems. USAID is not funding these

activities.


                                                                                               18
                                                                                          Appendix I


respectively. For nets and insecticide, we counted commodities in the central warehouses to
determine whether the records reflected what was on hand.

We performed similar exercises at 5 district health offices that stored PMI-funded commodities
and 30 government health facilities to determine whether the commodities were reaching
intended beneficiaries and being properly accounted for in the process. Since Zambia has
nearly 2,000 health facilities across its 72 districts,10 we could not undertake a statistically based
random sample because of staffing and logistical constraints. Instead we judgmentally selected
two districts that were participating in the Essential Medicines Logistics Improvement Program,
which the mission supported as a way of improving availability of essential medicines, based on
high rates of malaria prevalence, overlapping malaria interventions (drugs, tests, nets, and
spraying), and high allocation of PMI-funded commodities.

At the district level, we compared dispatch notes from MSL and SFH with the districts’ records
supporting receipt of the commodities. We reviewed districts’ records to determine whether
they had accounted for the drugs, tests, and nets properly as they moved to the health facilities
and for the insecticide sachets used during spray season. In the seven districts visited, we
counted nets and insecticide and compared those numbers with what was in the inventory
records. We did the same for drugs and tests in the five non-Emergency Medicine Logistics
Improvement Program districts.

At the health facility level, we compared dispatch notes from the district health offices with the
facilities’ records supporting receipt of the commodities. We reviewed the facilities’ records to
determine whether they adequately documented movement and consumption. We also counted
commodities to verify that what was on hand was the same as what was in the inventory
records. When available, we reviewed health facilities’ distribution and consumption records to
verify that the health facilities distributed the commodities to intended beneficiaries.

To calculate the quantity of insecticide used after spray season in the five districts where
spraying occurred, we reviewed the districts’ final spray reports because they stated how much
was left after the last day of the season. We compared the reported balance with what we
counted during visits in May. We calculated average insecticide usage rates for each district by
dividing the number of sachets used by the number of structures sprayed as reported by each
district in their final reports.

During all visits, we sought explanations for any discrepancies noted between records. We also
observed physical storage conditions to determine whether PMI-funded commodities were
being stored appropriately. Because of the nature of our sample, the results of our tests cannot
be projected to the entire population. Nevertheless, we believe evidence gathered during
fieldwork provided a reasonable basis for our findings and conclusions.

Additionally, to determine impact and knowledge of USAID’s sponsorship, we interviewed
residents of homes in the areas surrounding the district health offices and health facilities that
we visited.

To establish criteria for the audit, we considered the following documents, among others:

	 Government Accountability Office, Standards for Internal Control in the Federal
   Government.

10
     At the time of site visits, Zambia was in the process of creating new districts.

                                                                                                   19
                                                                                   Appendix I


	 USAID DELIVER, Guidelines for Managing the Malaria Supply Chain

	 ADS Chapters 201 (“Planning”), 202 (“Achieving”), 203 (“Assessing and Learning”), 302
   (“USAID Direct Contracting”), 303 (“Grants and Cooperative Agreements with Non-
   Governmental Organizations”), 320 (“Branding and Marking”), and 634 (“Administrative
   Control of Funds”)

	 World Health Organization Global Malaria Programme, Good procurement practices for
   artemisinin-based antimalarial medicines

	 World Health Organization Global Malaria Programme, Malaria Case Management
   Operations Manual

	 World Health Organization, Malaria Vector Control: Decision Making Criteria and
   Procedures for Judicious Use of Insecticides

The audit reviewed performance indicators but did not rely on them for the answer to the audit
objective. Therefore, we did not establish any materiality thresholds.




                                                                                           20
                                                                                    Appendix II



MANAGEMENT COMMENTS 




DATE:                 October 15, 2012

TO: 	                 Robert Mason, Regional Inspector General/Pretoria

FROM:                 Susan K. Brems, Ph.D., Mission Director /s/

SUBJECT:              Management Decisions on the Audit of Commodities Funded under the
                      President’s Malaria Initiative (PMI) in Zambia
                      (Report No. 4-611-12-00X-P).

REFERENCE:            a) 	   Audit Report No. 4-611-12-00X-P on Audit of Commodities
                             Funded under the President’s Malaria Initiative in Zambia.

                      b)     RIG/Pretoria Memorandum dated August 30, 2012.

___________________________________________________________________________

This memorandum communicates the management comments on the seven (7) audit
recommendations in the draft report on the audit of commodities funded under the President’s
Malaria Initiative (PMI) in Zambia.

USAID/Zambia thanks the RIG/Pretoria for conducting the audit on commodities funded under
the President’s Malaria Initiative (PMI). The above subject audit report and recommendations
will improve the quality of the program and will better ensure that USAID/Zambia PMI activities
achieve their intended objectives.

USAID/Zambia has reviewed and is in agreement with all seven (7) recommendations. The
following represents the Mission’s management comments, decisions and actions already
taken or planned to address properly the findings and recommendations contained in the
report.

Recommendation No. 1:

        We recommend that USAID/Zambia develop and implement an agreement with the
        Government of Zambia clearly delineating the Government of Zambia’s roles and
        responsibilities for malaria commodities purchased with U.S. Government funds.

                                                                                               21
                                                                                    Appendix II



Management Decision:

       We agree with this recommendation.

       Actions Taken:

       The Mission met with the Ministry of Health (MOH), Ministry of Community
       Development, Mother and Child Health (MCDMCH) and all health cooperating partners
       in August and September 2012 to update a Memorandum of Understanding (MOU)
       referred to as the Mutual Accountability Framework (MAF) that outlines roles and
       responsibilities for working together to achieve the common goals of the National Health
       Strategic Plan. The MAF was amended to include language stating that the Government
       of Zambia (GRZ) will “ensure that donor purchased commodities are secure and properly
       accounted for once they are delivered to a GRZ warehouse, storeroom or health facility.”
       (See Attachment I, Section 4.2.8 b on page 5). We expect the final MOU to be signed by
       March 31, 2013.

       Planned Actions:

       USAID/Zambia is working through John Snow Inc. (JSI) under Task Order number
       GPO-1-00-06-00007 to support the Ministry of Health’s work to develop a first National
       Supply Chain Strategy which will further define the roles and responsibilities of the
       Government of Zambia in procurement, storage, distribution, and accounting of
       commodities, including risk mitigation measures for safeguarding the delivery of
       commodities. This strategy is expected to be completed by March 31, 2013.

The above constitute the measures taken/planned to ensure that Recommendation No. 1 is
addressed.

Recommendation No. 2:

       We recommend that USAID/Zambia develop and implement a documented plan to
       mitigate the risks of using Government of Zambia systems for storage and
       distribution of malaria commodities funded by the President’s Malaria Initiative.

Management Decision:

       We agree with this recommendation.

       Actions Taken:




                                                                                            22
                                                                               Appendix II


USAID Zambia, in conjunction with other donors, contracted Deloitte Consulting to
conduct an assessment of the internal controls for both the government and non-
governmental supply chains for essential medicines in Zambia. The primary objective of
the assessment was to identify risks that could impact the effectiveness of inventory
control across Zambia’s pharmaceutical supply chain and then take actions to mitigate
potential mismanagement and loss. The assessment also quantified historical loss at
different supply chain levels and locations and identified specific strengths and
vulnerabilities in the supply chain. It also proposed steps to mitigate risks and provided
information for USAID to consider when determining the future direction of donor
assistance (See Attachment XI- Supply and Logistics Internal Control Evaluation
(SLICE) report, dated June 15, 2012).

USAID has since shared the report with MOH, and an action plan will be drawn up to
mitigate the risks identified in the report.

Planned Actions:

USAID/Zambia will also continue to:

a) strengthen the public-sector supply chain system to improve commodity availability
   at the facility level,
b) increase the accuracy of the Logistics Management Information System (LMIS),
c) increase transparency and efficiency of stock movement throughout the system, and
d) reduce the risk of loss or diversion of drugs, so that PMI commodities reach the
   intended beneficiaries in appropriate quantities and condition.

   1. Risk Mitigation Plan

   Using the SLICE report and other pertinent information, the Mission will develop and
   document a Mission plan to identify the risks of using Government of Zambia
   systems and provide mitigating controls to strengthen the storage and distribution of
   malaria commodities funded by the President’s Malaria Initiative. This plan will be
   completed by June 30, 2013.

   2. Storage

   To clarify roles and responsibilities, best practices and resources for supply chain,
   including storage and distribution, USAID/Zambia, through its partner John Snow
   Inc., is funding a process led by the MOH to develop the first National Supply Chain
   Strategy, which will be implemented by June 30, 2013. This strategy is also
   expected to address transport issues to the facilities and storage capacity at the
   facilities and thereby improve distribution and manage risks associated with using
   Government systems.

   The Minister of Health has recently announced plans to establish new warehouses in
   Zambia. USAID/Zambia will provide technical assistance to the Ministry of Health


                                                                                        23
                                                                                    Appendix II


          and Medical Stores Limited (MSL) to plan for these storage facilities properly and to
          facilitate proper storage practices, including support to conduct externally led
          physical audits on a regular basis. USAID/Zambia will also support more efficient
          distribution practices and thus reduce the burden on storage units by improving order
          reporting and submission of accurate order quantities.

          3. Distribution

          USAID/Zambia is hiring a logistics professional to provide technical assistance to
          MSL on a full-time basis to address the findings in the SLICE report, including the
          need for greater adherence to Standard Operating Procedures, greater data accuracy of
          the warehouse management system, and greater stock accountability centrally at MSL
          and down to the district level.

          USAID/Zambia is working with its partner, John Snow Inc., and the MOH to replace
          the current Supply Chain Manager inventory control system with a new electronic
          Logistics Management Information System (eLMIS) and will implement the first
          phase by April 30, 2013. This more robust eLMIS system will be rolled out over the
          next two years and will increase transparency of stock movement throughout the
          system, provide easier submission and processing of orders, and increase accuracy of
          data. It will also be linked to the warehouse management system for better transfer of
          data between the two systems.

          USAID/Zambia will continue to assist the MOH in scaling up the Essential Medicines
          Logistics Improvement Program (EMLIP) to 24 more districts next year and improve
          commodity availability at the facility level. With targeted technical support to MSL,
          USAID/Zambia will also support improvements in transparency of stock movement
          and stock accountability, enabling facilities to receive medicines based on orders.
          EMLIP training sessions focus on ordering and reporting on a monthly basis and data
          entry forms. USAID/Zambia also assists the MOH in supervising and monitoring its
          field-level staff for adherence to Standard Operating Procedures related to stock
          accountability and documentation.

          4. Staffing

          USAID/Zambia continues to provide training through its partner JSI to MOH health
          facilities staff in logistics management and pharmacy. This, coupled with the GRZ
          intention to recruit more staff for MOH, as laid out in the Governance and
          Management Capacity Plan (Attachment X), will assist in record management for
          commodities distributed using GRZ systems.

       We expect to complete all the above actions by June 30, 2013.

The above constitute the measures taken and planned to ensure that Recommendation No. 2 is
addressed.



                                                                                             24
                                                                                     Appendix II


Recommendation No. 3:

       We recommend that USAID/Zambia develop and implement procedures to review
       the annual Needs Assessment Report for errors and reasonable assurance for
       accuracy prior to using it for decision-making.

Management Decision:

       We agree with this recommendation.

       Actions Taken:

       The Contracting Officer’s Representative sent an e-mail to two senior staff at the Zambia
       Integrated Systems Strengthening Project that specified that the Annual Needs
       Assessment Report must be reviewed by the USAID/Zambia PMI Resident Advisor each
       year before it is finalized, to ensure its accuracy (See Attachment II).

The above constitutes the measure taken to ensure that Recommendation No. 3 is addressed.
Therefore, the Mission recommends that Recommendation No. 3 be closed.

Recommendation No. 4:

       We recommend that USAID/Zambia develop and implement a plan (in coordination
       with the Government of Zambia and other partners) to communicate to the districts
       expectations for the use and storage of surplus insecticide between spray seasons.

Management Decision:

       We agree with this recommendation.

       Actions Taken:

       USAID/Zambia has worked with implementing partners and the Ministry of Health to
       develop a Standard Operating Procedure document that clearly spells out expectations for
       the use and storage of left-over insecticides. We have attached a copy of this document,
       which will be sent to the Ministry of Health for final approval this month (See
       Attachment III).

The above constitutes the measure taken to ensure that Recommendation No. 4 is addressed.
Therefore, the Mission recommends that Recommendation No. 4 be closed.

Recommendation No. 5:

       We recommend that USAID/Zambia develop and implement procedures to improve
       maintenance of source documentation for its performance indicator data reported
       in the annual performance plan and report.


                                                                                              25
                                                                                   Appendix II



Management Decision:

       We agree with this recommendation.

       Actions Taken:

       In accordance with USAID/Zambia’s Monitoring and Evaluation Policy, the
       USAID/Zambia Management Team has taken several steps to improve data source
       documentation:

          	 A Mission-wide Performance Monitoring Plan (PMP) to improve the collection
             and dissemination of data for all performance indicators has been completed.
             (Attachment VI)
          	 Adequate source documents to support indicators will be submitted to the
             USAID/Program Office, to substantiate any results reported in the PPR each year.
          	 A trained monitoring and evaluation advisor has been recruited for the
             USAID/Zambia Health Team and will help support technical staff to ensure
             timely data quality assessments of each indicator and verify data reported to
             ensure quality and accuracy of information. (See Attachment VII for Health
             Team organizational chart.)

       All data to be reported in the FY2012 PPR will be supported adequately.

The above constitute the measures taken to ensure that Recommendation No. 5 is addressed.
Therefore, the Mission recommends that Recommendation No. 5 be closed.

Recommendation No. 6:

       We recommend that USAID/Zambia notify the Office of U.S. Foreign Assistance
       Resources, in writing, of the misreported results for malaria-related commodity
       indicators in fiscal year 2011.

Management Decision:

       We agree with this recommendation.

       Action Taken:

       The USAID/Zambia Program Office sent a memorandum to the Office of U.S. Foreign
       Assistance Resources on October 11, 2012, to correct the four misreported results for
       malaria commodity indicators (See Attachment V11).

The above constitutes the measure taken to ensure that Recommendation No. 6 is addressed.
Therefore, the Mission recommends that Recommendation No. 6 be closed.



                                                                                               26
                                                                                      Appendix II


Recommendation No. 7:

       We recommend that USAID/Zambia determine and document its objectives for
       identifying goods and services provided under the President’s Malaria Initiative in
       Zambia as American aid and update its communication strategies, including current
       branding and marking plans, if they do not currently achieve those objectives.

Management Decision:

       We agree with this recommendation.

       Planned Actions:

       Mission Management will develop and prepare a Mission Order setting out its branding
       and marking policies. The Mission Order will also address branding requirements for
       commodities procured by the Mission for distribution through the Zambian government
       system. The Mission Order will specify the policies and procedures to be followed to
       ensure that goods and services provided under the President’s Malaria Initiative in
       Zambia are identified as “American Aid.”

       A branding strategy for all PMI activities in Zambia will also be prepared that will
       identify:

          All the PMI-supported activities,
          The ways the materials and communications will be positioned,
          Commodities and equipment that will be branded,
          The desired level of visibility,
          Exception to Agency-required marking and branding requirements, and
          Any other organizations to be acknowledged.

       All Branding Implementation Plans (BIP) for PMI activities will be updated based on the
       Mission’s PMI branding strategy.

       We expect to complete all actions above by March 31, 2013.

The above constitute USAID/Zambia’s Management Comments with regard to the seven
audit recommendations contained in the RIG/Pretoria draft Audit Report no 4-611-12-00X-P.
This memorandum enumerates the measures taken and planned to address the
recommendations in the report.

Attachments: a/s.




                                                                                              27
                                                                                       Appendix III


                               Sites Auditors Visited

    Province       District            Facility/District Health Office
                                       Kapiri Mposhi District Health Office
                                       Luanshimba Rural Health Center
    Central        Kapiri Mposhi†
                                       Mulungushi University Rural Health Center
                                       Mukonchi Rural Health Center
                                       Ndola District Health Office
                                       Kanseshi Prison
                   Ndola†              Kabushi Urban Health Center
                                       Ndeke Urban Health Center
                                       Railway Surgery Urban Health Center
                                       Kitwe District Health Office
                                       Buchi Main Urban Health Center
                                       Zamtan Urban Health Center
                                       Kamfinsa Urban Health Center
                   Kitwe†              Kakolo Health Post
    Copperbelt
                                       Chavuma Urban Health Center
                                       Chimwemwe Urban Health Center
                                       Twatasha Urban Health Center
                                       Kawama Urban Health Center
                                       Chingola District Health Office
                                       Chawama Rural Health Center
                                       Kabundi East Urban Health Center
                   Chingola†
                                       Kasompe Urban Health Center
                                       Mutenda Rural Health Center
                                       Muchinshi Rural Health Center
                                       Chipata District Health Office
                   Chipata             Mnoro Rural Health Center
                                       Kasenga Rural Health Center
    Eastern
                                       Chama District Health Office
                   Chama‡              Chama District Hospital
                                       Kambombo Rural Health Center
                                       Kasama District Health Office
                                       Location Urban Health Center
                                       Musa Rural Health Center
    Northern       Kasama†‡            Kateshi Rural Health Center
                                       Chilubula Rural Health Center
                                       ZNS Chishimba Rural Health Center
                                       Army Urban Health Center
†
 Denotes PMI-supported spraying district.
‡
 Kasama and Chama district health offices did not store commodities as districts participating in the
Essential Medicines Logistics Improvement Program.




                                                                                                  28
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov/
